9

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

March 17, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

Kenneth C. McNeil v. United States ofAmerica

Dear Sir or Madam:
I hereby certify that at the request of the Petitioner, on March 17, 2021,1 caused
service to be made pursuant to Rule 29 and the Temporary Order of April 15, 2020, on
the following counsel for the Respondent:
RESPONDENT:
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
Sup reme CtBriefs@U SD O J. gov
This service was effected by depositing one copy of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
—

•*

Jack Suber, Esq.
Principal

RECEIVED
MAR 1 9 2021
LISA KAY NICHOLSON
Notary Public
State of Maryland
Montgomery County
My commission exp. October 12,2022

Sworn and subscribed before me this 17th day of March 2021.

